                                          SBA Home Page




                  Office of Inspector General
                             Audit Report


Job Opportunity Reporting Under the Section 503 and
                  504 Programs


                   Report No. 4-3-E-009-023
                        September 30, 1994


                                  Summary



   We have completed a survey of job opportunities reported by Certified
   Development Companies (CDCs) to be created or retained as a result of SBA's
   financial assistance under Sections 503 and 504 of the Small Business Investment
   Act. The objective of our review was to determine if the reported job
   opportunities created or retained as a result of SBA assistance were accurate and
   otherwise in compliance with SBA requirements.

   We reviewed job opportunity information in the 1991 and 1992 annual reports
   submitted by six CDCs located in Alabama and Tennessee. The CDCs were
   selected based on amount of activity, location, and discussions with SBA staff.
   We also reviewed the CDCs' files for 31 selected projects and visited 11 of the 31
   projects. In addition, we obtained and reviewed records of CDC job claims data
   maintained by the Office of Financial Assistance, Office of Rural Affairs and
   Economic Development (ORA&ED). We interviewed loan recipients, CDC and
   SBA staff, and several labor experts and economists.

   We performed the survey during the period April 1993 to July 1993 and generally
   covered the period July 1990 to April 1993. We conducted our survey in
   accordance with government auditing standards.
                                   Background



The purpose of CDC (503/504) loan programs is to foster economic development
and to create or preserve job opportunities by guaranteeing a portion of long-term
loans for eligible capital expenditures of small business concerns. The SBA
authorizes the sale of debentures, which it guarantees, as the source of its share, or
financing, of approved project costs.

To qualify for assistance, the CDCs must demonstrate that the project to be
funded will affect at least one of the following economic development objectives:

   o (1) Jobs - The creation of job opportunities within 2 years of the
     completion of the project or the preservation or retention of job
     opportunities attributable to the project;
   o (2) Community or Area Development - Improving the economy of the
     locality, such as stimulating other business development in the
     community; or
   o (3) Public Policy Goals - The achievement of one of the following public
     policy goals: business district revitalization, expansion of exports,
     expansion of minority business, rural development, enhanced economic
     competition, changes necessitated by Federal budget cutbacks, or business
     restructuring.

Projects approved under the community development or public policy goal
objectives need not meet the jobs objective if the CDC's overall portfolio meets
the jobs objective.

SBA requires each CDC to maintain an average of at least one job opportunity for
every $35,000 of debenture financing provided, unless otherwise approved. Prior
to June 14, 1990, the required job opportunity average was one job per $15,000 of
SBA debenture financing. The change from $15,000 to $35,000 was based on an
SBA study of capital investment required for job creation and inflationary factors.
The $15,000 ratio had been in effect since 1980 and was believed to be outdated.

Based on CDC annual reports through September 30, 1992, the 503/504 projects
funded totaled more than $2.8 billion in SBA guaranteed debentures and created
or retained over 314,000 jobs --an average of $8,900 per job nationwide.

We concluded that the CDCs reviewed did not always comply with the SBA's job
opportunity reporting requirements but had provided the required number of jobs
(one for each $35,000 of SBA assistance) on the approved projects. See
Attachment 1 for a listing of the CDCs and projects reviewed, including the
results of our review of job opportunities reported.
In a written response to our draft audit-related memorandum, the Director,
ORA&ED, stated that the audit findings were consistent with their experience in
getting CDCs to properly gather and report job creation and retention data. The
Director generally concurred with our recommendations and indicated corrective
action would be taken and, in some cases, had already been initiated. When fully
implemented, the actions taken or proposed by the Director should resolve most
of the reported findings. Because corrective actions had not been .completed at
the time of the Director's response, we have restated the recommendations in the
final report.

                                                     Results of Review

It appears that the six CDCs were generally achieving the program goal of
fostering economic development through creation and retention or preservation of
job opportunities in that they exceeded the minimum required average of one job
for every $35,000 in SBA assistance. Notwithstanding this general achievement
level, five of the six CDCs did not fully comply with program reporting and
documentation requirements and some made errors in the numbers of job
opportunities shown in the annual reports reviewed. Also, SBA district office staff
indicated that they did not emphasize job opportunity requirements in their
monitoring of CDC activities. As a result, SBA's management information related
to job opportunities created and retained through the 503/504 program was
inaccurate. We are recommending that you take actions to emphasize the
importance of CDCs' complying with job opportunity requirements, including
filing accurate and complete annual reports to SBA.

For more information on this report, call:

Peter McClintock
Assistant Inspector General for Auditing
202-205-7203

For a copy of the complete report, submit a Freedom of Information Act request
to:

Small Business Administration
Office of Inspector General
Assistant Inspector General for Management and Legal Counsel
409 Third St., SW
Washington, DC 20416-4111
202-205-6580
                OIG Reports Page                                                                OIG Home Page




                              OIG Reports Page                             OIG Home Page
                                        Search SBA         SBA Home Page         SBA Site Map
SBA Webmaster, www@www.sba.gov


     Content: OIG@sba.gov
       * Updated: 2/4/98
